November 7, 2008

VICE PRESIDENTS, AREA OPERATIONS

SUBJECT: Audit Report – Revenue Generation by Automated Postal Centers
         (Report Number MS-AR-09-003)

This report presents the results of our self-initiated audit of Automated Postal Centers®
(APC) (Project Number 08RG023MS000). Our objective was to determine whether the
Postal Service is using best practices with its currently deployed APCs. Specifically, we
identified: (1) the Postal Service districts that collected the highest percentage of
eligible revenue1 at APCs; (2) the Postal Service districts that collected the lowest
percentage of eligible revenue at APCs; and (3) best practices used by the
high-performing districts. This audit addresses strategic and operational risks.2 See
Appendix A for additional information about this audit.

Conclusion

Postal Service officials have developed and implemented a variety of best practices
regarding APCs. These include:

     •   Active oversight at the area level.
     •   Active, daily management at the district and local levels.
     •   Incentives to promote the use of APCs.
     •   Extended hours of access to APCs.
     •   Optimized hours of access to the retail window to meet customers' needs.

However, these best practices were not implemented equally effectively in all Postal
Service districts. We estimate that effectively implementing best practices in the
10 districts that collected the lowest percentage of APC eligible revenue would result in
approximately $1.67 million in funds put to better use3 during the next 2 years. See
Appendix C for our calculation of the monetary impact.




1
  Eligible revenue is the entire amount of revenue that could have been collected at the APC. It includes revenue
collected at the APC as well as the retail window.
2
  The strategic risk is that of potential revenue loss due to electronic diversion. The operational risks involve possible
process inefficiencies due to excess workhours; customer service issues associated with access to products and
services; and slow migration to a more automated environment.
3
  Funds put to better use are funds that could be used more efficiently by taking the actions recommended.
Revenue Generation by Automated Postal Centers                                   MS-AR-09-003



The U.S. Postal Service Office of Inspector General (OIG) and district and retail unit
officials raised several other matters that, while not directly related to our objective,
could influence APC use:

    •   Adding foreign language instructions.
    •   Using digital signage.
    •   Adding barcode scanners to APCs.
    •   Balancing the emphasis between the Mystery Shopper program and APCs.

See Appendix B for our detailed analysis of this topic.

We recommend that the Vice Presidents, Area Operations:

1. Establish and maintain oversight of the Automated Postal Centers at the area level.

We recommend that the Vice Presidents, Area Operations, direct district managers to:

2. Manage Automated Postal Center usage proactively on a daily basis at the district
   level, via steps that include:
     o Using reporting tools.
     o Communicating regularly with field offices.
     o Visiting field offices periodically.

3. Conduct active, daily Automated Postal Center management at the local level, via
   steps that include:
     o Using reporting tools.
     o Ensuring that centers are well stocked, performing preventive maintenance,
        and ordering necessary replacement parts immediately.
     o Clearing alerts immediately.
     o Having supplies in a convenient, nearby location.
     o Using a proactive host.
     o Informing window clerks of the value and importance of these Automated
        Postal Centers for increased customer service.

We suggest that the Vice Presidents, Area Operations, consider:

4. Offering incentives to station managers, postmasters, and hosts for making
   outstanding use of Automated Postal Centers.

5. Offering incentives to customers for using Automated Postal Centers.

6. Providing 24-hour access to Automated Postal Centers in all locations.

7. Optimizing hours of access to the retail window by opening later or closing earlier.




                                                 2
Revenue Generation by Automated Postal Centers                                 MS-AR-09-003



Management’s Comments

Management agreed with our three recommendations and area officials stated that they
had processes in place to ensure officials follow the recommendations. Additionally,
Northeast Area officials stated they would establish an APC visit schedule and develop
standard operating procedures incorporating best practices for APC sites by November
7, 2008. Southwest Area officials stated they would reissue APC instructions by
November 4, 2008; Great Lakes Area officials stated they would complete APC
refresher training with each district by October 31, 2008; and New York Metro Area
officials stated they would conduct additional training on APC reports on November 2,
2008. However, Western Area officials stated that APC hosts were currently not
financially feasible.

Management generally agreed with our four suggestions and stated they had processes
either in place or in progress to ensure officials follow the suggestions. However,
Southeast Area officials disagreed with our suggestion to offer incentives to station
managers, postmasters, and hosts for making outstanding use of APCs because they
said it is already management’s responsibility to provide the best possible service to
customers. They also disagreed with our suggestion to offer incentives to customers for
using APCs because APCs provide benefits that make additional incentives
unnecessary. New York Metro Area officials also disagreed with these suggestions,
noting that they used both types of incentives when APCs were installed, but the
incentives were no longer necessary.

Western Area officials stated they would consider the suggestion to offer incentives to
station managers, postmasters, and hosts who make outstanding use of APCs when it
is “practical” to do so. They also agreed with the suggestion to offer incentives to
customers for using APCs if headquarters endorsed the plan and suggested that
offering Click-N-Ship® rates at the APC would be a significant incentive for use to
customers.

Eastern Area officials stated they would consider our suggestions to offer incentives to
customers for using APCs and to optimize hours of access to the retail window by
opening later or closing earlier.

Southwest and Pacific Area officials did not respond to our suggestions, and Great
Lakes Area officials did not respond to our suggestions to offer incentives to station
managers, postmasters, and hosts for making outstanding use of APCs and to offer
incentives to customers for using APCs.

Northeast and Eastern Area officials agreed with the monetary impact we reported.
However, Great Lakes Area officials stated that eligible revenue was overstated
because it included transactions paid by cash or check. Western Area officials said
they could not support our methodology for calculating the monetary impact for the
same reason, but are “strongly committed” to capturing workhour savings. Pacific Area




                                                 3
Revenue Generation by Automated Postal Centers                                 MS-AR-09-003



officials stated that, although they agreed there is a potential for workhour savings, they
did not agree with the monetary impact we reported. They noted the Honolulu District’s
highest performing APCs were meeting their revenue goals and should have been
omitted from the calculation, resulting in a 37 percent reduction in monetary impact for
the area. Pacific Area officials also stated that eligible revenue was overstated. Capital
Metro Area officials did not respond to the monetary impact we reported. See Appendix
E for management’s comments in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to all the recommendations
and suggestions, and management’s corrective actions should resolve the issues
identified in the report.

The OIG considers recommendations 1, 2, and 3 significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
follow-up tracking system until the OIG provides written confirmation the
recommendations can be closed.

Although Great Lakes and Western Area officials questioned our methodology for
calculating monetary impact, they did not dispute the figures reported or present an
alternative. The officials indicated that cash and check transactions should be excluded
from our calculation because APCs do not accept cash or checks. Although APCs do
not accept cash or checks, the reports management uses to evaluate whether APCs are
achieving established goals include these transactions. We believe our methodology
for calculating monetary impact is conservative because we used the national average
of 20 percent of eligible transactions as a target for computing monetary impact rather
than the significantly higher expected average for APCs.

Pacific Area officials also disagreed with our methodology, claiming the monetary
impact we reported for the area is overstated by 37 percent because some APCs are
meeting revenue goals. However, we believe our methodology was reasonable
because Postal Service management defined what constitutes eligible revenue and our
monetary impact calculations are based on a percentage of eligible revenue, not actual
revenue collected. Even those APCs that are meeting revenue goals can improve if
officials implement best practices. Therefore, we will report $1,674,953 in funds put to
better use in our Semiannual Report to Congress.




                                                 4
Revenue Generation by Automated Postal Centers                              MS-AR-09-003



We appreciate the cooperation and courtesies provided by your staff during the audit. If
you have any questions or need additional information, please contact Robert Mitchell,
Director, Sales and Service, or me at (703) 248-2100.

   E-Signed by Tammy Whitcomb
 VERIFY authenticity with ApproveIt




Tammy L. Whitcomb
Deputy Assistant Inspector General
 for Revenue and Systems

Attachments

cc: Patrick R. Donahoe
    William P. Galligan
    Anthony M. Pajunas
    Kathleen Ainsworth
    Janet L. Webster
    Lori M. Wigley
    Katherine S. Banks




                                                 5
Revenue Generation by Automated Postal Centers                                                        MS-AR-09-003




                            APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND




In 2004 the Postal Service introduced the APC, a self-service kiosk designed to offer
customers a wide range of postal products, services, and information.4 The APC is a
convenient alternative to counter services, enabling customers who do not require
assistance to save time by avoiding the retail line. It also allows window clerks to focus
on transactions that require face-to-face interaction. APCs are typically located in post
office lobbies, and many are accessible 24 hours a day, 7 days a week. Presently
2,500 APCs are in use at post offices around the country.

Since APCs provide a self-service alternative to the window clerk, they further the
Postal Service’s goals of reducing costs and improving customer service. They are an
important component of Retail Operations’ goal of moving 40 percent of revenue to
alternate access channels by 2010. Currently, 45 percent of all customer visits at retail
counters can be completed in their entirety at the APC. However, APCs are diverting
only about 20 percent of eligible transactions from retail counters nationally.



4
 Using a touch screen and personal identification number (PIN) pad, customers can weigh and rate letters, flats, and
parcels up to 70 pounds; purchase postage in any denomination for Express, Priority, First Class, International (under
1 pound), and Parcel Post mail. Customers can also print Express Mail forms; look up ZIP Codes; purchase Delivery
Confirmation, Signature Confirmation, Insurance, Certified, and Return Receipt services; pay with debit, credit, and
Electronic Benefit Transfer cards; and generate payment receipts.




                                                          6
Revenue Generation by Automated Postal Centers                                                       MS-AR-09-003



The Retail Data Mart (RDM) contains standard time factors for various retail
transactions, including those that can be completed at the APC. The Postal Service
calculates total transaction times for retail units by applying the standard time factors to
the actual transactions completed at the retail window. These calculated transaction
times constitute part of the earned workhours for a retail unit. Managers consider
earned workhours in making scheduling and staffing decisions.

The RDM also reports transactions completed at the APC. The APC Gain report shows
the percentage of all revenue eligible for collection at the APC that actually was
collected at the APC.5 It also shows both the workhour savings achieved during a given
time period attributable to the APC (based on the transactions performed at the APC
and their associated time factors) and the savings that would have been achieved if all
eligible transactions had been performed at the APC.

As more transactions are conducted at the APC and fewer at the retail window, earned
workhours decrease. Therefore, if retail units increase the number of transactions
conducted at the APC by implementing best practices, managers have an opportunity to
capture workhour savings and reduce their costs — for example, by reducing overtime
hours in response to fewer earned workhours.

OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to determine whether the Postal Service is using best practices with
its currently deployed APCs. Specifically, we identified: (1) the Postal Service districts
that collected the highest percentage of APC-eligible revenue at APCs; (2) the Postal
Service districts that collected the lowest percentage of APC-eligible revenue at APCs;
and (3) best practices used by the high-performing districts.

We conducted our work at the Central New Jersey, Northern New Jersey, Fort Worth,
Dallas, Houston, Southeast Michigan, Detroit, and Lakeland Districts. We selected
Houston because it collected the highest percentage of APC eligible revenue at APCs
between October 2005 and March 2008, and Central New Jersey, Northern New
Jersey, Fort Worth, and Dallas were also among the top 12 performers. Conversely, we
selected the Southeast Michigan, Detroit, and Lakeland Districts because they were
among the 12 districts that collected the lowest percentage of APC-eligible revenue at
APCs.

Our scope included transactions at APCs between October 2005 and March 2008 and
the practices used by retail units in order to generate transactions at APCs.

To accomplish our objectives, we:


5
  For revenue to be APC-eligible, the customer must be able to complete the entire visit at the APC. For example, a
visit that includes sending an international parcel weighing more than 1 pound would not generate APC-eligible
revenue, even if the customer also purchased products or services that could have been obtained at the APC.




                                                         7
Revenue Generation by Automated Postal Centers                                                 MS-AR-09-003



    •   Analyzed data from the RDM’s APC Gain report between October 2005 and
        March 2008.

    •   Reviewed policies, procedures, training materials, and related documentation to
        determine what guidance is available to retail units on using APCs.6

    •   Interviewed headquarters and field officials to ascertain their strategies for
        successful APC use.

    •   Observed retail unit practices surrounding APC use within judgmentally selected
        districts. See Appendix D for a list of the district and field offices we visited.

We conducted this performance audit from June through November 2008 in accordance
with generally accepted government auditing standards and included such tests of
internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We relied on data obtained
from the RDM. We did not directly audit the RDM, but performed a limited data integrity
test to support our data reliance. We discussed our observations and conclusions with
management officials on September 8 and 12, 2008, and included their comments
where appropriate.

PRIOR AUDIT COVERAGE

Our report, Deployment Strategy of Automated Postal Centers (Report Number DR-AR-
07-010, dated June 7, 2007), concluded that Postal Service deployment strategy for
APC kiosks during Phase I was adequate. In addition, as of December 2006, officials
identified and appropriately redeployed 170 underperforming APC kiosks. However,
approximately 54 percent of APC kiosks did not meet the minimum revenue
requirements in fiscal year (FY) 2006. Further, approximately 55 percent of APC kiosks
did not meet the minimum revenue requirements as of the first quarter of FY 2007.

The report also concluded that the Postal Service could improve plans for future
deployment of Phase II APC kiosks. The draft Decision Analysis Report (DAR) used
Phase I transaction data, instead of actual transaction data from the Phase II candidate
facilities, to calculate labor savings. As a result, the Postal Service’s implementation of
the Phase II purchase of 3,000 APC kiosks could result in a $115 million loss during the
next 7 years, instead of the $243 million gain projected by the draft DAR.


6
 Documentation reviewed includes Handbook PO-106, Automated Postal Center Program, November 2007;
Automated Postal Center Host: Standard Operating Procedures; Automated Postal Center Postmaster’s
Communications Kit; Automated Postal Center Customer Service Advisor Guide; APC Information Book; and the
APC website.




                                                      8
Revenue Generation by Automated Postal Centers                              MS-AR-09-003



We recommended the Vice President, Delivery and Retail, revise, finalize, and distribute
the APC instructional documents to area officials. We also recommended management
reevaluate the draft DAR assumptions. Management agreed with our findings and
recommendations. Management’s actions should correct the issues identified in our
report.




                                                 9
Revenue Generation by Automated Postal Centers                                  MS-AR-09-003



                           APPENDIX B: DETAILED ANALYSIS

Implementing Best Practices

In order to determine best practices, we obtained the APC Gain report for all 80 districts
for the period from October 2005 through March 2008 (inclusive). We then ranked the
districts according to the percentage of eligible revenue they collected at the APC. We
judgmentally selected five districts from among those that collected the highest
percentage of eligible revenue at the APC and three districts from among those that
collected the lowest percentage. We visited each of the district offices selected, as well
as two or three retail units within each district, to interview officials and observe retail
practices. We then drew conclusions regarding best practices based on our interviews
and observations. See Appendix D for a list of the district and field offices we visited.

The following districts collected the highest percentage of eligible revenue at their APCs
between October 2005 and March 2008.

                                                       Percentage
                              District                   at APC     Rank
                      Houston                             30.40       1
                      Central New Jersey                  27.55       2
                      Mississippi                         27.35       3
                      Oklahoma                            27.14       4
                      Greater South Carolina              26.82       5
                      Dallas                              26.35       6
                      Colorado/Wyoming                    26.05       7
                      Atlanta                             25.80       8
                      Fort Worth                          25.78       9
                      Salt Lake City                      25.54      10
                      Rio Grande                          25.41      11
                      Northern New Jersey                 25.38      12
                       Source: Retail Data Mart




                                                  10
Revenue Generation by Automated Postal Centers                                MS-AR-09-003




The following districts collected the lowest percentage of eligible revenue at the APC
between October 2005 and March 2008.

                                                      Percentage
                               District                 at APC     Rank
                      Caribbean                           9.66      80
                      Southeast Michigan                 15.29      79
                      Honolulu                           15.73      78
                      Dakotas                            16.26      77
                      Pittsburgh                         16.46      76
                      Greater Michigan                   16.62      75
                      Alaska                             17.07      74
                      Central Pennsylvania               17.10      73
                      Baltimore                          17.33      72
                      Lakeland                           17.35      71
                      Southeast New England              17.49      70
                      Detroit                            17.64      69
                      Source: Retail Data Mart




                                                 11
Revenue Generation by Automated Postal Centers                               MS-AR-09-003




During our audit, we noted the following best practices.

Establish and maintain oversight at the area level. The five districts we visited
within the highest-performing group were all in the New York Metro or Southwest Areas.
Officials in these districts emphasized that their area vice presidents (AVPs) were aware
of and interested in the APC program and provided practical oversight. According to
them, area officials monitored APC performance and investigated when performance
indicated potential problems. Further, AVPs participated in discussions about APCs
and offered suggestions on promoting their use. For example, the New York Metro AVP
suggested using the incentives discussed on page 14.




                                                 12
Revenue Generation by Automated Postal Centers                                                       MS-AR-09-003



Manage proactively on a daily basis at the district level. Officials in the five highest-
performing districts we visited all stated that they monitor the APC program daily and
work proactively to identify and resolve problems. They use reports covering no stamp
sales, daily revenue, candidate revenue achieved, and APC alerts to keep abreast of
each retail unit’s performance. They communicate daily with retail units, informing them
of sales goals, their performance relative to goals and other units in the district, their
performance relative to prior periods, and solutions to remedy lower-than-expected
performance. Officials in these districts also noted that when a retail unit appears for
more than 1 or 2 days on a report that indicates a problem (such as an APC not selling
any stamps on a particular day), an official from the district office — up to and including
the district manager — visits that unit to determine the cause and resolve the problem.

Conduct active, daily management at the local level. At each of the highest-
performing districts we visited, local managers or supervisors said that they spend time
each day to ensure their APCs succeed. In addition to reading and following up on any
reports or communication they receive from the district office, they track their own
performance, monitoring daily revenue, percent of APC-eligible revenue collected at the
APC, their position compared to other retail units in the district, and APC stock levels.
They ensure that the APC is well-stocked at all times and that supplies such as
packaging materials are in a convenient, nearby location; perform regular, preventive
maintenance on machines, such as cleaning interior and exterior parts; and immediately
order any necessary replacement parts. They stated that as a result, they rarely receive
APC alerts7 and their APCs are rarely out of service. However, they noted that should
they receive an APC alert, they initiate steps to clear the alert immediately.

Local managers or supervisors also stressed the importance of using a proactive APC
host whenever possible. The host should be someone with good people skills and a
thorough understanding of the APC. They said the ideal place to position the host is
near the main entrance, where the host could immediately greet customers, ascertain
whether their transactions could be completed at the APC, encourage them to try using
the APC, and help them complete their transactions.

Local managers and supervisors also stated that window clerks play an important role in
improving APC use, even if they are not serving as APC hosts. They do this by
explaining to customers at the retail window the products and services that customers
can obtain at the APC and encouraging them to try it during their next visit. At retail
units with highly successful APCs, managers and supervisors have discussed with
window clerks the concept that APCs do not threaten their jobs. Further, the window
clerks now understand that diverting eligible transactions to APCs allows them to better
serve customers who require face-to-face interaction and that APCs can reduce wait
times in line, so the APCs are, therefore, another means of improving customer service.



7
 Alerts are generated when a device on the APC requires service or to inform employees of a certain condition (for
example, “Stamp booklet stock near empty”).




                                                         13
Revenue Generation by Automated Postal Centers                                    MS-AR-09-003



Offer incentives to station managers, postmasters, and APC hosts. The
high-performing districts offered periodic incentives to retail unit officials for outstanding
APC performance. For example, in one district, the office that showed the greatest
improvement in candidate revenue achieved during the same period last year, or the
highest percentage increase in revenue, received a traveling trophy. In another district,
the APC host with the best-performing machine received a token of appreciation such
as a gift card to a local store.

Offer incentives to customers for using APCs. District and local officials said they
periodically held contests for customers who used APCs and awarded prizes. For
example, at one retail unit, APC customers could enter a raffle, and the winner received
an iPod.

Provide 24-hour access to APCs. In all five high-performing districts, officials at the
district or retail unit level stated that providing 24-hour access to APCs is an important
contributor to making the machines successful. They noted that many operators of
home-based businesses who mail numerous pieces in one visit enjoy the convenience
of purchasing and printing postage during off-peak hours. Many business commuters
also enjoy the convenience of using APCs on their way to or from work, when retail
windows are often closed.

Optimize hours of access to the retail window. District and retail unit officials
suggested that opening the retail window later or closing it earlier are effective ways to
improve APC performance. They noted that they were able to do this without receiving
many complaints from customers, while increasing revenue at the APC.

We observed several areas in which practices in the lowest-performing group differed
from those in the highest-performing group. Examples follow.

   •   District officials did not communicate frequently enough with field offices and did
       not make frequent enough visits to retail units with APCs that performed poorly.
       District officials communicated with retail unit officials, including sending reports
       regarding APC performance, but this communication was not as frequent as in
       the high-performing districts. Also, the wide geographic area over which retail
       units are dispersed in some districts — such as Lakeland — made it difficult for
       district officials to visit many retail units.

   •   Local officials did not make sufficient use of available reporting tools. Local
       officials stated that they monitored relevant reports, but they did not do so on a
       daily basis.

   •   Local officials did not conduct preventive maintenance on APCs frequently
       enough. Some officials stated that they only conducted maintenance when they
       received an alert, and others said they did not perform regular or routine
       maintenance.




                                                 14
Revenue Generation by Automated Postal Centers                                                         MS-AR-09-003




      •    Local officials did not always have support from window clerks.

      •    District or local officials had not considered reducing window hours.

In other instances, district and local officials from the lowest-performing group cited
obstacles beyond their control that hindered their APCs’ performances. These included:

      •    Local officials stated that replacement parts were not shipped in a timely manner,
           although they ordered parts as soon as they were needed.

      •    Local officials cited insufficient resources.
              o No employee was available to serve as the APC host.
              o There was insufficient space to place the APC in the best location.

      •    Local officials noted that their retail space configuration prevented 24-hour
           access to the APC. In one case, local officials had been working since October
           2007 to obtain 24-hour access.

      •    Some local officials reported that their customer base was strongly pro-union.
           Many of these customers could not be convinced to use the APC because they
           felt they would be taking away an employee's job.

      •    District and local officials cited language barriers. They stated that many of their
           customers did not read English or Spanish well enough to use the APC.

Other Matters

In several districts, officials mentioned that adding foreign language instructions (other
than Spanish) would enhance the value of the APC for their customer base. According
to Detroit District officials, for example, a significant portion of its large Arabic-speaking
population does not read English well enough to use the APC. OIG officials also noted
that digital signs directing customers to the APC and describing its main features could
make more customers aware of the machine and encourage them to try it. These signs
could be located either directly inside the entrance to the lobby or above the retail
counter, where customers standing in line could see them. In several districts, officials
pointed out that customers who make ReadyPost®8 purchases cannot use the APC;
they suggested that adding scanners to the APCs could significantly increase their use.
Finally, officials in one district noted that the Postal Service’s emphasis on the Mystery
Shopper program may be an impediment to fully realizing the APC’s potential because
the Mystery Shopper program rewards units partly based on the clerk’s interaction with
the customer. A concerted effort to guide customers to the APC may create the


8
    ReadyPost products include envelopes, shipping containers, and packing materials sold at Post Offices.




                                                           15
Revenue Generation by Automated Postal Centers                             MS-AR-09-003



appearance of a less customer-friendly environment, negatively affecting Mystery
Shopper scores.




                                                 16
Revenue Generation by Automated Postal Centers                                                       MS-AR-09-003




                 APPENDIX C: CALCULATION OF FUNDS PUT TO BETTER USE

                                     Assumes
                                        20
                                      Percent
                                         of                                   Annual      2 Years’
                                     Potential                Additional     Workhour    Workhour
                        Potential      Work-       Actual     Workhours       Savings     Savings
                         Work-         hours       Work-      Saved by         from         from
                          hour          Are         hour       Improve-      Improve-    Improve-        Monetary
     Area/District      Savings        Saved      Savings       ments          ments       ments          Impact
                           A          B=A*20         C          D=B-C         E=D*2/5      F=E*2            G
                                      percent
Great Lakes
  Southeast               214,953       42,991      30,949          12,042       4,817
  Michigan
  Lakeland                208,407       41,681      32,733           8,948       3,579
  Greater                 153,553       30,711      23,210           7,501       3,000
  Michigan
     Subtotal             576,913      115,383      86,891          28,491      11,397       22,793        $876,283
Eastern
  Pittsburgh               87,943       17,589      11,288           6,301       2,520
  Central                 111,717       22,343      16,350           5,993       2,397
  Pennsylvania
     Subtotal             199,659       39,932      27,638          12,293       4,917        9,835         378,098
Western
  Dakotas                  43,501        8,700       6,840           1,861         744
  Alaska                   42,817        8,563       7,907             656         263
     Subtotal              86,318       17,264      14,747           2,517       1,007        2,014          77,415
Capital Metro
  Baltimore               144,908       28,982      24,933           4,049       1,620        3,239         124,526
Pacific
  Honolulu                137,379       27,476      23,260           4,216       1,686        3,373         129,656
Northeastern
  SE New                   61,728       12,346       9,453           2,893       1,157        2,314          88,976
  England

        Totals          1,206,906      241,381    186,922           54,459      21,784       43,568     $1,674,9539

Source: Retail Data Mart (Columns A, C)

Potential workhour savings (Column A) is the product of all APC-eligible transactions at
retail units multiplied by their associated transaction times, regardless of whether the
transactions took place at the retail window or the APC. Actual workhour savings
(Column C) is the product of all transactions completed at the APC multiplied by their
associated transaction times. These transactions constitute a savings in workhours
because if they had been conducted at the retail window, earned workhours would have
increased.


9
    Actual totals may be slightly higher or lower because of rounding.




                                                             17
Revenue Generation by Automated Postal Centers                                                        MS-AR-09-003



From October 2005 through March 2008, the 10 lowest-performing districts achieved an
actual savings of 186,922 workhours (Columns C), 15.5 percent of their 1,206,906
potential workhour savings. If those 10 districts had achieved 20.0 percent of their
potential savings,10 an additional 54,459 workhours would have been saved during the
period (Column D). Because this additional savings covers a 2.5-year period,
multiplying by 2/5 produces an average annual savings of 21,784 workhours (Column
E).

The Postal Service has an opportunity to capture workhour savings by implementing the
best practices described in this document nationwide. Assuming that the overall level of
transactions and revenue at retail units remains stable, if the 10 lowest-performing
districts captured the workhour savings associated with raising their performance from
15.5 percent to 20.0 percent and correspondingly reduced overtime hours, they would
create $1,674,953 in funds put to better use over the next 2 years (Column G).11




10
     The national average for the time period was 20.6 percent.
11
     At an average hourly overtime rate of $38.445, 21,783.752 hours per year for 2 years = $1,674,952.69128.




                                                          18
Revenue Generation by Automated Postal Centers                               MS-AR-09-003




                APPENDIX D: DISTRICT AND FIELD OFFICES VISITED

                                      Highest-Performing

                             Districts                     Field Offices
                        Houston                       River Oaks
                                                      Panther Creek
                                                      Klein
                        Central New Jersey            Kendall Park
                                                      East Brunswick
                                                      Edison
                        Dallas                        Plano Northwest
                                                      Flower Mound
                                                      Irving Valley Ranch
                        Fort Worth                    Ridglea
                                                      North Richland Hills
                                                      Keller
                        Northern New Jersey           Westfield
                                                      Rahway
                                                      Elizabeth

                                      Lowest-Performing

                             Districts                   Field Offices
                        Southeast Michigan            XxxxlXxxx
                                                      Xxxx Xxxxxxxxxx
                        Lakeland                      Xxxxxxxxxx
                                                      Xxx Xxxxx
                        Detroit                       Xxxxxxxx Xxxx
                                                      Xxxxxxx Xxxx
                                                      Xxxxxx




                                                 19
Revenue Generation by Automated Postal Centers            MS-AR-09-003



                      APPENDIX E: MANAGEMENT’S COMMENTS




                                            Redacted




                                                 20
Revenue Generation by Automated Postal Centers         MS-AR-09-003




                                            Redacted




                                                 21
Revenue Generation by Automated Postal Centers         MS-AR-09-003




                                            Redacted




                                                 22
Revenue Generation by Automated Postal Centers         MS-AR-09-003




                                            Redacted




                                                 23
Revenue Generation by Automated Postal Centers         MS-AR-09-003




                                            Redacted




                                                 24
Revenue Generation by Automated Postal Centers         MS-AR-09-003




                                            Redacted




                                                 25
Revenue Generation by Automated Postal Centers         MS-AR-09-003




                                            Redacted




                                                 26
Revenue Generation by Automated Postal Centers         MS-AR-09-003




                                            Redacted




                                                 27
Revenue Generation by Automated Postal Centers         MS-AR-09-003




                                            Redacted




                                                 28
Revenue Generation by Automated Postal Centers         MS-AR-09-003




                                            Redacted




                                                 29
Revenue Generation by Automated Postal Centers         MS-AR-09-003




                                            Redacted




                                                 30
Revenue Generation by Automated Postal Centers         MS-AR-09-003




                                            Redacted




                                                 31
Revenue Generation by Automated Postal Centers         MS-AR-09-003




                                            Redacted




                                                 32
Revenue Generation by Automated Postal Centers         MS-AR-09-003




                                            Redacted




                                                 33
Revenue Generation by Automated Postal Centers         MS-AR-09-003




                                            Redacted




                                                 34
Revenue Generation by Automated Postal Centers         MS-AR-09-003




                                            Redacted




                                                 35
Revenue Generation by Automated Postal Centers         MS-AR-09-003




                                            Redacted




                                                 36
Revenue Generation by Automated Postal Centers         MS-AR-09-003




                                            Redacted




                                                 37
Revenue Generation by Automated Postal Centers         MS-AR-09-003




                                            Redacted




                                                 38
Revenue Generation by Automated Postal Centers         MS-AR-09-003




                                            Redacted




                                                 39
Revenue Generation by Automated Postal Centers         MS-AR-09-003




                                            Redacted




                                                 40
Revenue Generation by Automated Postal Centers         MS-AR-09-003




                                            Redacted




                                                 41
Revenue Generation by Automated Postal Centers         MS-AR-09-003




                                            Redacted




                                                 42
Revenue Generation by Automated Postal Centers         MS-AR-09-003




                                            Redacted




                                                 43
Revenue Generation by Automated Postal Centers         MS-AR-09-003




                                            Redacted




                                                 44
Revenue Generation by Automated Postal Centers         MS-AR-09-003




                                            Redacted




                                                 45
Revenue Generation by Automated Postal Centers         MS-AR-09-003




                                            Redacted




                                                 46
